    AGRICULTURAL MARKETING SERVICE
  CONTROLS OVER PORK CHECKOFF FUNDS
           WASHINGTON, D.C.
    EVALUATION REPORT NO. 01801-1-KC

              MARCH 1999




UNITED STATES DEPARTMENT OF AGRICULTURE
   OFFICE OF INSPECTOR GENERAL - AUDIT
           GREAT PLAINS REGION
               P. O. BOX 293
        KANSAS CITY, MISSOURI 64141
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL

                                  Washington D.C. 20250



 DATE:      March 31, 1999

REPLY TO
ATTN OF:    01801-1-KC

SUBJECT:    Controls Over Pork Checkoff Funds

     TO:    Enrique Figueroa
            Administrator
            Agricultural Marketing Service

   ATTN:    David Lewis
            Director
            Compliance Staff


This report presents the results of our evaluation of the National Pork
Board’s (Board) controls over pork checkoff funds. Although our evaluation
did not disclose material misuse of checkoff funds, it showed the Board needs
to improve accountability for the funds and regain control over the National
Pork Producers Association’s (NPPC) influence on the Board’s business. We
identified significant weaknesses in the Board’s management controls over
checkoff funded NPPC subcontracts and cost accounting practices. We also
found that the Board did not perform effective compliance testing at checkoff
fund collection sites or during State association reviews. In addition, the
Board did not ensure that pork producers are afforded a complete and equal
access to national pork delegate elections.

Your March 9, 1999, written comments on the draft report are included as
exhibit C, with excerpts and the Office of Inspector General’s (OIG) position
incorporated into relevant sections of the report. Your response provided
sufficient information to reach a management decision on all findings and
recommendations of the evaluation. Please follow your internal agency
procedures and provide final action documentation to the Office of the Chief
Financial Officer.

We appreciated the courtesies and cooperation extended to us by members of
your staff, the National Pork Board, and the National Pork Producers Council.




JAMES R. EBBITT
Assistant Inspector General
  for Audit
                        EXECUTIVE SUMMARY
             CONTROLS OVER PORK CHECKOFF FUNDS
                   AUDIT NO. 01801-0001-KC



                                      This   evaluation was scheduled as part of
            PURPOSE                    the  Office of Inspector General’s annual
                                       plan    and  requested   by  Agricultural
                                       Marketing Service (AMS) officials. Our
                                       overall objective was to determine if the
            National Pork Board (Board) and AMS applied effective controls to
            ensure pork checkoff funds were collected, distributed, and expended
            in accordance with the Pork Promotion, Research and Consumer
            Information Act of 1985 (Act).

            The Board was established by the Act to promote the pork industry
            through research and advertising. The Board is empowered to finance
            its activities by collecting assessments, called "checkoff funds,"
            from all pork producers, based on the volume of their production.
            In 1997, the Board collected $60 million in checkoff funds.

                                      Ourevaluation showed that the Board
      RESULTS IN BRIEF              basically used checkoff funds to finance
                                    pork promotion, research, and consumer
                                    education   projects   which    generally
                                    benefited the pork industry, including
         small and disadvantaged producers. Our evaluation did not disclose
         material misuse or loss of checkoff funds, but it did find the Board
         has relinquished too much authority to its primary contractor, the
         National Pork Producers Council (NPPC), and has placed the NPPC in
         a position to exert undue influence over Board budgets and grant
         proposals. The Board has awarded all program grants to the NPPC
         since 1996.

            The Board itself has not hired sufficient staff to administer and
            provide adequate oversight of the checkoff program.      The Board
            employs only two persons (an Executive Vice President and an
            assistant), to oversee $60 million in annual checkoff collections,
            distribution, and use. The Board’s degree of dependence on the NPPC
            to administer subcontracts and carry out much of the Board’s work
            resulted in a weakened accountability over contributed funds.




USDA/OIG-A/01801-1-KC                                                    Page i
            -   Projects were begun without contracts or without appropriate
                signatures on contracts. NPPC agreed to ignore USDA contract
                requirements for veterans preferences, etc., when vendors
                objected to them.

            -   The Board did not require NPPC to implement accounting and
                management information systems to track and report on the
                checkoff funds expended for each project and subcontract.

            -   The Board was not involved in NPPC activities for subcontractor
                selections, setting contract terms, and accepting deliverables.

            -   The NPPC did not develop adequate written policies and procedures
                for administering checkoff-funded projects and subcontracts.

            The absence of appropriate oversight by the Board resulted in
            subcontractors working without contracts, a $900,000 unsecured
            prepayment to a subcontractor, varying and subjective rates for
            common contracting costs, nondisclosure of potential conflicts of
            interest, and noncompliance with USDA and NPPC’s own requirements.

            We also established that the Board’s lack of oversight also had a
            negative impact on assuring accountability of funds for other
            activities. We found that neither the Board nor AMS tested NPPC’s
            fixed cost allocations to determine if the allocations were fairly
            applied to checkoff activities. The Board also did not effectively
            test compliance at checkoff collection sites or at State pork
            associations.   State associations receive and expend about $10.5
            million in national checkoff funds each year.

            In addition, the Board did not provide State pork associations
            sufficient guidance on their national election practices.    State
            associations restricted producer access to Board national delegate
            elections.    As a result, the elections in some States were
            vulnerable to manipulation because all producers were not provided
            equal opportunity to participate.

                                       We recommended AMS work with the Board
  KEY   RECOMMENDATIONS              and  its delegates to develop a plan to
                                     accomplish appropriate separation from
                                     the NPPC and assure accountability for
                                     checkoff expenditures. The plan should
          provide   for   sufficient   staff   to  oversee   key   operational
          responsibilities for the Board. We also recommended actions for the
          Board to more effectively oversee their primary contractor’s
          subcontracting practices and procedures; more closely monitor and
          test State association checkoff expenditures and collections and
          transfer of checkoff funds from collection sites; and improve access
          to Board delegate elections for all pork producers.




USDA/OIG-A/01801-1-KC                                                    Page ii
                                      We  discussed   our   draft   findings,
      AGENCY POSITION               conclusions,  and  recommendations   with
                                    responsible AMS officials on January 20,
                                    1999. The officials generally concurred
                                    with our findings and recommendations.
         However, preliminary discussions of our results with representatives
         of the Board and NPPC indicated that officials of both organizations
         disagreed with our conclusions concerning the working relationship
         of the Board and the NPPC, as well as certain NPPC subcontracting
         and accounting activities (see exhibit B for the Board’s written
         comments on our preliminary results). The Board’s Executive Vice
         President and NPPC’s Chief Executive Officer stated their mutual
         belief that the NPPC’s close working relationship with the Board has
         not weakened the contract relationship between the two entities and
         that the partnership has served the industry well by conserving
         personnel and overhead costs.

            On March 9, 1999, AMS officials provided written comments on our
            draft report. The comments showed the officials generally concurred
            with our findings and accepted our recommendations. The comments
            also provided sufficient information about the agency’s planned
            corrective actions to achieve a management decision on all findings
            and recommendations of the evaluation (see written comments attached
            as exhibit C). We incorporated relevant excerpts of the comments
            into the applicable sections of the report.




USDA/OIG-A/01801-1-KC                                                  Page iii
TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . .        i




INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

   OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    2

   SCOPE   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   2

   METHODOLOGY   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   2


FINDINGS AND RECOMMENDATIONS         . . . . . . . . . . . . . . . . . . . .   4

I. ACCOUNTABILITY OF CHECKOFF FUNDS SHOULD BE IMPROVED   . . . . . . . . . .   4

   BOARD’S DELEGATION OF AUTHORITY WEAKENED ITS CONTROLS
   AND ACCOUNTABILITY   . . . . . . . . . . . . . . . . . . . . . . . . . .    4

   Recommendation No. 1a   . . . . . . . . . . . . . . . . . . . . . . . . .   8

   Recommendation No. 1b   . . . . . . . . . . . . . . . . . . . . . . . . .   9

   SUBCONTRACTING PRACTICES NEED IMPROVEMENT   . . . . . . . . . . . . . . .   9

   Recommendation No. 2a   . . . . . . . . . . . . . . . . . . . . . . . . . 15

   Recommendation No. 2b   . . . . . . . . . . . . . . . . . . . . . . . . . 16

   Recommendation No. 2c   . . . . . . . . . . . . . . . . . . . . . . . . . 16

   COST ACCOUNTING REQUIREMENTS NEED STRENGTHENING   . . . . . . . . . . . . 17

   Recommendation No. 3a   . . . . . . . . . . . . . . . . . . . . . . . . . 19

   Recommendation No. 3b   . . . . . . . . . . . . . . . . . . . . . . . . . 19




USDA/OIG-A/01801-1-KC                                                   Page iv
TABLE OF CONTENTS


   REVIEWS OF STATE ASSOCIATIONS DID NOT TEST FOR
   COMPLIANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

   Recommendation No. 4a   . . . . . . . . . . . . . . . . . . . . . . . . . 21

   COLLECTION SITE REVIEWS NEED BETTER CONTROLS . . . . . . . . . . . . . . 22

   Recommendation No. 5a   . . . . . . . . . . . . . . . . . . . . . . . . . 23


 II. NATIONAL PORK ELECTIONS SHOULD BE MORE INCLUSIVE . . . . . . . . . . . 24

   RESTRICTED VOTING OPPORTUNITIES INHIBIT PARTICIPATION   . . . . . . . . . 24

   Recommendation No. 6a   . . . . . . . . . . . . . . . . . . . . . . . . . 25

   Recommendation No. 6b   . . . . . . . . . . . . . . . . . . . . . . . . . 26



EXHIBITS

   A - PROJECT ACCOUNT CLASSIFICATIONS   . . . . . . . . . . . . . . . . . . 27

   B - NATIONAL PORK BOARD COMMENTS ON OUR PRELIMINARY FINDINGS . . . . . . 30

   C - AMS RESPONSE TO THE DRAFT REPORT . . . . . . . . . . . . . . . . . . 32




USDA/OIG-A/01801-1-KC                                                    Page v
                           INTRODUCTION


                                      In answer to increasing quantities of
         BACKGROUND                   low-cost imports of foreign produced pork
                                      and pork products, Congress enacted the
                                      Pork Promotion, Research and Consumer
                                      Information Act of 1985 (Act).        The
           purpose of the Act was to provide an orderly procedure for financing
           and carrying out an effective and coordinated program of promotion,
           research, and consumer information to strengthen the position of the
           pork industry in the marketplace and to maintain, develop, and
           expand markets for pork and pork products.

            The Act established a 15-member National Pork Board (Board) to
            implement the Act, with oversight by the Secretary of the U.S.
            Department of Agriculture (USDA).      The Agricultural Marketing
            Service (AMS), a USDA agency, fulfills the Department’s oversight
            responsibilities through its Livestock and Seed Division. The Board
            employs two full-time employees to administer the collection,
            distribution, and use of the checkoff funds.

            The Board began operating in 1986. Board members are nominated by
            pork producers (through the Pork Act Delegate Body) and shall
            consist of producers representing at least 12 States and importers
            appointed by the Secretary. Members may serve up to two consecutive
            3-year terms and are not compensated for their service.

            The Act also established an assessment to finance the Board’s
            promotion, research, and consumer information activities.        The
            assessments, commonly referred to as "checkoff," are collected from
            all importers and pork producers based upon the value of their
            imports and/or production. The assessments began in 1986 and have
            grown in value in recent years.     The current assessment rate is
            .0045, or 45 cents per $100 of the market price.         Assessments
            totaled about $41 million in 1995, but a recent increase in the rate
            raised about $58 million in 1996 and $60 million in 1997.        The
            Board’s 1998 budget provided for about $56 million in revenues.

            The Act acknowledged an existing nonprofit organization, the
            National Pork Producers Council (NPPC), as a venue for facilitating
            implementation of the Act.     Thus, Congress authorized temporary
            disbursement of checkoff funds directly to the NPPC in 1986. Within
            a short time, the NPPC became the Board’s primary contractor for
            implementing the Act. The Board presently contracts the NPPC to
            provide working space; routine personnel, administrative, and
            accounting services; and the technical and professional applications
            necessary to implement requirements of the Act. The NPPC employed
            98 employees at the time of our evaluation, to take care of NPPC




USDA/OIG-A/01801-1-KC                                                    Page 1
            business, to provide services to the Board, and to administer
            projects for the Board’s eight industry program areas. The areas
            include (1) Consumer Advertising, (2) Retail Merchandising, (3) Pork
            Information, (4) Foodservice Promotion, (5) Foreign Market
            Development/World Trade, (6) Production Technology and Information,
            (7) New Products Development, and (8) Swine Health/Pork Quality/Pork
            Safety.

            At the time of our evaluation, the pork industry, including the
            Board and the NPPC, was involved in public discussion on the state
            of the pork industry, including the impact of large, commercial hog
            confinement operations on small farmers and the environment.      A
            number of pork producers and civil activist groups were also in the
            process of gathering signatures for a referendum on pork checkoff
            assessments and related issues.    Our evaluation was planned and
            conducted to facilitate USDA’s oversight responsibilities and was
            not performed to hinder or promote any opinions expressed in these
            public discussions or related proposals for a referendum.

                                      The objective of our evaluation was to
          OBJECTIVES                 determine  if the Board and AMS applied
                                     effective control systems to ensure that
                                     pork   checkoff  funds   are  collected,
                                     distributed, and expended in accordance
           with applicable laws and regulations.

                                      We    performed our fieldwork at AMS
              SCOPE                    offices in Washington, D.C., and at the
                                       co-located offices of the Board and the
                                       NPPC in Clive, Iowa.      Our evaluation
                                       generally covered the Board and the NPPC
            expenditures and operations funded with checkoff dollars during 1997
            and 1998, but included components of 1996 activities when warranted.

            Specific matters reviewed included checkoff funded operations of the
            Board and the NPPC; controls over checkoff collections; distribution
            of checkoff funds to State associations; checkoff funded agreements,
            contracts, and subcontracts; Board and/or NPPC committees; oversight
            and compliance activities; and delegate body elections. We relied
            on audits conducted by an international certified public accounting
            firm on the Board’s and the NPPC’s financial statements for issues
            concerning financial operations.

            Our evaluation was conducted in accordance with the Quality
            Standards for Inspections of the President’s Council on Integrity
            and Efficiency.

                                      To accomplish     our    objectives,   we
        METHODOLOGY                 performed a  survey to  identify issues and
                                    areas vulnerable to noncompliance with
                                    the Act.    Based on the results of the
                                    survey, we developed and performed tests
          of program records, contracts, and subcontracts, as well as




USDA/OIG-A/01801-1-KC                                                    Page 2
            financial and election documentation. We interviewed and obtained
            regulatory information from responsible AMS program officials. We
            also obtained the officials’ comments and concerns on the
            administration of the Act.

            Our evaluation included interviews with the Board’s Executive Vice
            President; the NPPC’s Chief Executive Officer (CEO) and other NPPC
            officials, staff, and subcontractors; and the certified public
            accountant engaged by the Board and the NPPC to perform periodic
            financial statement audits.

            We visited the Iowa Pork Producers Association and reviewed the
            objectives of the association’s 1997 checkoff funded projects. We
            also interviewed officials at five State pork producer associations
            to obtain information about their nomination practices and
            procedures, voting participation levels and accessibility for
            eligible producers. The five associations were judgmentally selected
            based on the amount of checkoff receipts distributed to each State
            in 1997.

            We interviewed 36 producers    to verify collection information and
            obtain their comments about    the pork checkoff program.    We also
            interviewed representatives    and members of three civil activist
            groups which publicly voiced   concerns about pork checkoff issues.

            We reviewed the agreements between the Board and the NPPC, as well
            as subcontracts awarded by the NPPC for pork checkoff funded
            projects and activities. We could not establish the total number or
            dollar value of all subcontracts active during the period of our
            evaluation (see Finding Nos. 2 and 3). We judgmentally selected
            three vendors with 1997 NPPC subcontracts for detailed review, one
            of which did not have an active contract at the time of our review.
            The review included evaluation of the documentation and other
            support for all related checkoff disbursements, as well as tests to
            determine the adequacy of controls in place to prevent and detect
            waste, loss, and misuse of checkoff funds. All three vendors were
            selected primarily because NPPC documents indicated funds disbursed
            to the vendors exceeded the contracted amounts. Two of the vendors
            were also selected because the contracted deliverables included
            personal or consulting services. The third was selected because the
            vendor received over $1 million under the contract.        We also
            reviewed the files of 51 subcontracts with budgets that exceeded
            $25,000 and were active during 1998.




USDA/OIG-A/01801-1-KC                                                     Page 3
            FINDINGS AND RECOMMENDATIONS


  I.    ACCOUNTABILITY OF CHECKOFF FUNDS SHOULD BE IMPROVED



            The Board has not assured an appropriate level of accountability for
            pork checkoff funds. Although we found no evidence that the Board
            or the primary contractor misused checkoff funds, we believe the
            Board should retain more direct control over program operations and
            funds in order to comply with the Act. Several factors weakened the
            Board’s control over its operations and funds, including:

            *   A scarcity of Board staff to administer the program and to
                oversee operations delegated to the Board’s primary contractor;

            *   the relationship between the Board and its primary contractor,
                including annual contract and service agreement renewals;

            *   the primary contractor’s     inappropriate   contracting and   cost
                accounting practices; and

            *   ineffective compliance reviews at collection sites and for State
                associations’ use of checkoff funds.

                                       The Board delegated too much authority to
       BOARD’S DELEGATION OF          its primary contractor, the NPPC, without
                                      establishing effective control systems to
        AUTHORITY WEAKENED            assure accountability of its contributed
         ITS CONTROLS AND             funds.   The Board was not sufficiently
          ACCOUNTABILITY              staffed to administer the program, and it
                                      perpetually renewed its contract with the
                                      NPPC to carry out much of the Board’s
                                      work    without    instituting    adequate
                                      reporting systems and oversight. In our
           FINDING NO. 1              opinion, the Board’s relationship with
                                      the NPPC and its degree of dependence on
                                      it have subjected checkoff funds to a
            level of NPPC influence that is unnecessary and inappropriate. We
            believe through the Board’s reliance on the NPPC, the Board has
            relinquished the responsibilities and authorities it was given under
            the Act.

            The Conference Report for "The Food, Agriculture, Conservation, and
            Trade Act of 1990" (October 22, 1990), includes provisions which
            prohibit commodity boards from allowing other organizations to
            influence their decisions.    Subtitle I, Section 1999S(b) of the
            report states:




USDA/OIG-A/01801-1-KC                                                      Page 4
               It is the sense of Congress that, to ensure the continued success
               of the federally-authorized checkoff programs, boards or councils
               that participate in the administration of the checkoff program
               should take care to faithfully and diligently perform the
               functions assigned to them under the authorizing legislation
               * * * [E]ach currently operational checkoff board or council
               should review its charter and activities to ensure that its
               responsibilities and duties have not been inappropriately
               delegated or otherwise relinquished to another organization.

            Conditions disclosed during our evaluation show the Board became
            dependent upon the NPPC to such a degree that inappropriate
            influence was unavoidable and the Board relinquished key
            responsibilities to the NPPC. The details follow.

            a. Staffing. The Board employs only two full-time employees, an
               Executive Vice President and an assistant. These employees must
               oversee the collection, distribution, and expenditure of checkoff
               funds totaling about $60 million annually.          Section 1619
               (b)(1)(G) of the Act states the Board shall employ a staff and
               conduct routine business.    The provision does not describe a
               minimum staff nor prohibit the use of contracted services to
               accomplish the Board’s business.

               In our opinion, two employees cannot be expected to fulfill all
               the necessary administrative and oversight responsibilities and
               be reasonably expected to maintain the level of accountability
               necessary to ensure the integrity of checkoff funds. The effect
               of this weakness is compounded by the number and complexity of
               issues within the eight major grant areas, the number of
               checkoff-funded projects and contracts under authority of the
               Board, and the influencing factors of the NPPC.

           b. Committees and Task Forces. Checkoff dollars fund committees of
              both the Board and the NPPC that are used to develop annual
              proposals for the Board’s eight major grant areas.            The
              committees develop detailed projects, budgets, and subprojects
              within each grant area. Although the Board makes final decisions
              on significant issues, the issues themselves are often formed by,
              or based upon, the committees’ work.

               We examined the structure of 48 committees operating for the
               Board and/or the NPPC in March 1998.     Thirty-three of these
               committees were funded entirely with checkoff dollars. Fifteen
               of these 33 were described once as separate committees for the
               Board, once as separate committees for the NPPC, and once again
               as joint Board/NPPC committees.      Another eight committees
               operated with both checkoff and NPPC non-checkoff funds.     We
               believe these and other conditions show funding, structure, and
               assigned tasks for the committees have obscured accountability
               for checkoff expenditures.




USDA/OIG-A/01801-1-KC                                                    Page 5
               --   Thirteen of the 33 committees that were funded entirely with
                    checkoff dollars did not include a Board member. Ten of these
                    committees formulated policies for the $7.7 million checkoff
                    "Product Improvement/Production Technology" grant of 1997.

               --   Two committees that were funded entirely with non-checkoff
                    dollars included Board members even though the committees
                    engaged only in NPPC business. Another three committees that
                    were funded partially with checkoff dollars did not include
                    a Board member; these three committees engaged only in NPPC
                    business.

               --   One consultant served on six committees which were funded
                    under the same grant as his projects. We did not establish
                    whether or not this consultant helped develop the work
                    eventually awarded to him.     At a minimum, this condition
                    presented the appearance of a conflict of interest. Managers
                    from another NPPC subcontractor also served on checkoff-
                    funded program committees (see Finding No. 2).

               Although the Board and the NPPC Board of Directors retained
               approval authorities, these committees framed the direction and
               policies eventually approved or disapproved by the respective
               boards. We concluded that neither organization was independent
               of the other because Board members were not represented on
               committees used to develop the direction of checkoff-funded
               grants, but were included in NPPC committees which dealt with
               non-checkoff-funded issues.

            c. NPPC Influence on the Board’s Budget. The Board’s budget was
               developed with assistance from the NPPC Board of Directors and
               the NPPC Budget Committee. These NPPC officers participated in
               prioritizing and placing projects in specific grant areas. This
               participation was also based upon a preliminary budget that was
               developed for the Board by an NPPC economist.

           d. NPPC Technical and Administrative Assistance for Developing Grant
              Proposals, Projects, and Subprojects.       NPPC staff provided
              technical and administrative assistance during development of
              annual proposals for the eight grant areas. NPPC staff drafted
              and presented preliminary checkoff-funded grant allocations to
              both the Board’s and the NPPC’s budget committees. This means
              that NPPC employees and officers were in a position to influence
              the content of the annual contract proposals for the grants.

              The Board administered the grants and projects through
              participation in selected committees and through limited
              oversight provided by the Board’s Executive Vice President.
              While participation in the committees by Board members provided
              some control over the budgets for planned projects, Board members
              did not review or reconcile actual project expenditures to the
              corresponding budgeted amounts (see Finding No.3) to ensure
              projects were maintained and completed in accordance with their
              respective project budgets.




USDA/OIG-A/01801-1-KC                                                     Page 6
            e. NPPC Awarded All Eight Grant Areas. The Board has awarded all
               program grants to the NPPC since 1996. In prior years, two of
               the eight grants were awarded to a subgroup of the now defunct
               National Livestock Meat Board. The annual grant awards to the
               NPPC provides NPPC opportunities to influence information
               provided to the Board and other potential bidders before the
               grants are advertised for bid.       We found that NPPC staff
               participated in planning and developing the methodologies
               approved by the Board to conduct and complete checkoff projects
               and subprojects. This arrangement provided advance notice to the
               NPPC on the details for each proposal. NPPC staff were also in
               influential positions within the Board’s decision-making
               processes as staff consultants for committees. In our opinion,
               these factors make it unlikely the Board could or would award any
               grants to another entity.

           f. NPPC Administrative and Accounting Services and Support. Each
              year, the Board awarded a contract to the NPPC to provide
              administrative and accounting services.   NPPC staff performed
              almost all the Board’s administrative and accounting functions,
              including   accounting   for    salaries,   travel,   receipts,
              distributions to State associations, and disbursement of funds
              for all of the Board’s promotional, educational, and research
              projects.   NPPC employs a Chief Financial Officer (CFO), a
              comptroller, a seven person accounting staff, and a personnel
              manager. The Board relied on the NPPC accounting staff and did
              not employ a financial manager, an accountant, or a personnel
              specialist. As a result, the NPPC accomplished all the Board’s
              routine administrative and accounting responsibilities without
              sufficient oversight or validation by the Board.

            g. Credit for Board Projects. Publications and literature produced
               by the NPPC for the Board’s checkoff-funded projects were
               promoted as NPPC products, rather than products of the Board.
               The standard credit line on such products is: "National Pork
               Producers Council in cooperation with the National Pork Board."
               In this way, the Board’s contractor, the NPPC, claims primary
               credit for projects developed and funded by the Board with
               contributions from pork producers and importers. We believe the
               statement implies that the authorship of projects and the
               ownership of project materials originated with the NPPC rather
               than the Board, and does not acknowledge the contributions of
               producers and importers. In our opinion, the statement is an
               indicator of how the NPPC and the Board perceive the actual
               relationship between the Board, the NPPC, and checkoff
               contributors.

            h. Co-location with the NPPC. The Board’s offices are located in a
               building owned and occupied by the NPPC. The Board pays rent to
               the NPPC and shares common facilities, such as meeting rooms,
               kitchen, library, receptionist, telephone system, and other
               equipment. The Board may be reached through the internet, but
               only through the NPPC domain at "nppc.org," which incidentally is
               maintained with checkoff dollars provided through the Board. The




USDA/OIG-A/01801-1-KC                                                    Page 7
               co-location of headquarter offices of the Board and the NPPC may
               not be a significant factor in the Board’s independence, but it
               promotes the perception of the Board’s dependence on the NPPC.

            The Board’s Executive Vice President and NPPC officials vigorously
            defended the current structure of the Board and its relationship
            with the NPPC. Both organizations offered persuasive arguments to
            defend the individual factors we noted, as efficient and effective
            administration of the checkoff program.          However, when the
            combination of factors is viewed as a whole, and in combination with
            Finding Nos. 2 (contracts) and 3 (cost accounting), these conditions
            show a Board that does not operate independently and without undue
            influence from the NPPC.

            The Board and the NPPC should remember that while all pork producers
            are obligated to contribute pork checkoff dollars, they may not
            agree with the NPPC’s priorities.     Some producers are, in fact,
            opposed to the NPPC itself. To comply with the Act and protect the
            integrity of the checkoff program, the Board should maintain an
            arms-length business relationship with the NPPC. It should also
            provide better assurance to the Department and producers that
            checkoff dollars are not used primarily to advance NPPC goals and
            objectives.


    RECOMMENDATION NO. 1a

                                       AMS program officials should work with
            the Board and delegates to develop and implement a plan that ensures
            appropriate separation of the Board from the NPPC and assures
            appropriate accountability for Board expenditures of checkoff
            dollars.

            AMS Response
            AMS’ March 9, 1999, written comments acknowledged that the Board
            must interact with its primary contractor to ensure proper oversight
            of NPPC’s checkoff fund expenditures and delivery of contracted work
            products and services. The agency will require the Board to take
            action by August 1, 1999, to assure (1) Board officers/employees do
            not involve themselves in routine NPPC business matters and
            decisions or attend NPPC meetings which do not specifically involve
            Board related issues, (2) identify the Board’s press releases and
            other public communications as being issued by the Board,
            (3) establish a unique internet domain and website for the Board,
            separate from that of the NPPC (by July 1, 1999), and (4) arrange
            for an independent third party review of the Board’s present systems
            and policies for maintaining accountability of checkoff funds,
            including recommendations for improvements. Based on the results of
            the review, AMS will work with the Board to strengthen the Board’s
            accountability.   The review shall be completed and the results
            submitted to AMS by September 30, 1999.      Improvements made as a
            result of the review shall be implemented by January 1, 2000.




USDA/OIG-A/01801-1-KC                                                    Page 8
            In addition, AMS will require the Board to develop a clear policy
            for Board member participation in NPPC committee meetings funded, at
            least in part, with checkoff dollars. The policy shall be completed
            and submitted to AMS by August 1, 1999, and is subject to AMS
            approval.

            OIG Position
            We agree with management’s decision for this recommendation.


    RECOMMENDATION NO. 1b

                                      AMS should instruct the Board to ensure
            that all checkoff-funded publications, literature, and other
            products properly emphasize the contributions of the nation’s pork
            producers and the Board.

            AMS Response
            AMS will instruct the Board that it must claim credit on any
            communication,    plan,     project,    publication,    promotions,
            advertisements, and any other work product paid for with Board
            funds, including all credit and tag lines. AMS shall require the
            Board to submit a corrective action plan for this by July 1, 1999,
            and implement an AMS approved plan by August 1, 1999. AMS will also
            establish appropriate review and approval procedures.

            OIG Position
            We concur with management’s decision for this recommendation.

                                      TheBoard delegated authority to the NPPC
  SUBCONTRACTING PRACTICES          to    administer    subcontracts   without
                                    establishing controls to ensure the
      NEED IMPROVEMENT              subcontracts were in the best interest of
                                    the Board.       Public awareness of a
                                    recently questioned NPPC subcontract led
                                    the AMS, the Board, and the NPPC to
         FINDING NO. 2              strengthen controls over the NPPC’s
                                    subcontracting practices. Nevertheless,
                                    the Board’s oversight of subcontracting
          activities had not significantly improved. Specifically, the Board
          continued to authorize the NPPC to negotiate and administer
          subcontracts, including vendor selection and terms of agreement,
          without Board involvement. As a result, the Board cannot provide
          reasonable assurance that checkoff funds expended for NPPC
          subcontracts were adequately safeguarded from misappropriation,
          waste, loss, and misuse.

            The NPPC advertised bids, selected subcontractors, negotiated and
            finalized subcontract terms, accepted deliverables (services and




USDA/OIG-A/01801-1-KC                                                      Page 9
            products), and made final payments to subcontractors without review
            or involvement of Board members or employees. The Board’s Executive
            Vice President stated although he was not aware of all the checkoff-
            funded subcontracts, he and the Board members worked closely with
            NPPC staff to develop each project. The director did not believe it
            was necessary for the Board to be involved with the NPPC’s
            contracting operations.

            While the Board need not be involved with all subcontracting
            activities, Board members have a duty to ensure the NPPC administers
            checkoff-funded subcontracts in the best interest of the Board. The
            following circumstances illustrate significant weaknesses in current
            practices.

            a. Management Information Systems are Needed to Manage Multiple
               Subcontracts.   The Board did not require NPPC to establish a
               tracking or reporting function to control the progress of
               subcontractors engaged to accomplish projects under each grant
               area.   Similarly, the NPPC did not initiate a tracking and
               reporting system on its own. As a result, neither organization
               could compile a list of active subcontracts and agreements funded
               by the Board, nor summarize the checkoff dollars obligated to
               each subcontractor.

           b. Subcontracting Policies and Procedures Should be Prescribed. The
              Board relied on NPPC staff to administer checkoff-funded
              subcontracts without prescribing adequate written procedures.
              The procedures are necessary to help assure NPPC staff properly
              implement Board contracting requirements and policies. Although
              the Board established written policies and procedures for
              contracts awarded directly by the Board, it did not require the
              NPPC to apply them to subcontracts for checkoff projects.
              Written procedures were not available for such activities as
              advertising bids for subcontracts, selecting appropriate
              subcontractors, negotiating the terms of subcontracts, and
              defining deliverable services and products.

               The following examples are conditions we observed during the
               evaluation.     Note the NPPC generally applied contract
               restrictions required by the Department.

               (1) Uniform Rates for Administrative Support Costs. The Board
                   did not provide written guidance on how to reimburse
                   subcontractors for routine support costs or to pay
                   consultants for nonconsulting hours. An NPPC official stated
                   project managers were authorized to negotiate different rates
                   for routine support costs, such as travel and clerical
                   assistance. For at least two subcontractors, this delegated
                   authority increased the vulnerability of checkoff dollars to
                   abuse.

                   Consultant A.    The consultant obtained three subcontracts
                   from the NPPC, none of which included provisions to reimburse
                   the consultant for rental car costs. The project manager




USDA/OIG-A/01801-1-KC                                                   Page 10
                   verbally authorized the subcontractor to rent cars and be
                   reimbursed for the expense, even though other consultants
                   were not approved for such expenses. The consultant and the
                   NPPC project manager acknowledged the consultant used the
                   rental cars for personal reasons. They stated the consultant
                   required NPPC to provide rental cars as a precondition to
                   performing the contracted services. The consultant required
                   a car as means for a quick return to his residence, due to
                   family concerns.

                  Consultant B.   The subcontract for consultant B, a chef,
                  authorized payment of $100 per hour for consulting services,
                  but it did not provide for payments based on travel time or
                  time spent for support services. The NPPC project manager
                  authorized compensation for the chef at a rate of $50 per
                  hour for travel time, even though NPPC did not generally
                  authorize such compensation. The manager also authorized $50
                  per hour payments for nonprofessional support duties, such as
                  grocery shopping and cleaning equipment. NPPC compensated
                  the vendor without applicable contract provisions.

                  In our opinion,       the situations involving these two
                  consultants should     clearly have been addressed in the
                  vendors’ contracts,    based on Board policy, rather than on
                  subjective criteria   applied by individual project managers.

              (2) Disclosure of Potential Conflicts of Interest. The Board did
                  not require the NPPC to obtain disclosure statements to
                  detect potential conflicts of interest between subcontractors
                  and their majority investors with either the Board or the
                  NPPC. Disclosure statements are necessary when, as in this
                  case, the contractor operates in an apparently limited
                  environment of relatively few potential subcontractors.

                  For example, consultant A served on six program committees
                  serving both the Board and the NPPC.     All six committees
                  dealt with the grant used by NPPC to fund the consultant’s
                  projects (see Finding No. 1). We did not find the consultant
                  exercised influence within the committees to affect his
                  contract work. However, having the contractor serve on the
                  same committees that developed plans and budgets for his
                  projects gave the appearance of a conflict of interest.

                  In a second example, subcontractor C received an advance
                  payment of $900,000 without providing collateral or
                  preliminary services to secure the amount. The NPPC did not
                  require the vendor to submit a disclosure statement (see item
                  (3) below) to ensure the vendor did not have a conflict of
                  interest with any of the NPPC officials involved with the
                  contract terms.      We obtained and reviewed financial
                  information on the contractor and did not find any apparent
                  conflicts of interest.




USDA/OIG-A/01801-1-KC                                                   Page 11
                   NPPC officials and the Board’s Executive Vice President did
                   not agree that conflict of interest certifications were
                   necessary.   We believe written disclosures of potential
                   conflicts of interest are essential because many NPPC
                   subcontracts deal with research that can be performed by
                   organizations with close personal or business relations with
                   NPPC and Board officials.      The Board, NPPC, and many
                   subcontractors were all located in Iowa, increasing the
                   potential for business relationships between them.

               (3) Unsecured Advanced Payments.    The Board’s Executive Vice
                   President did not prohibit the NPPC from making advance
                   payments to subcontractors without adequate security or the
                   Board’s expressed approval.     We found the NPPC prepaid
                   subcontractor C $900,000 of a $1 million subcontract without
                   collateral or other security. NPPC officials conferred with
                   the Board’s Executive Vice President before the advance
                   payment was made.      In our opinion, this transaction
                   unnecessarily put $900,000 in checkoff funds at risk from
                   loss or unauthorized use.      In the absence of adequate
                   security,   the   transaction    demonstrated   questionable
                   contracting practices and poor cash management.

                   Subcontractor C also received an additional $300,000 for the
                   project without an addendum to the contract; that is, the
                   total cost of the services provided was $1.3 million on a
                   contract budgeted and approved for $1 million. NPPC staff
                   authorized the additional expenditures under purchase order,
                   rather than contract addendum. NPPC disbursed two payments,
                   totaling $300,000, after revised contracting procedures
                   prohibited the practice.     An NPPC official stated that
                   proceeds from sale of the animals at project completion may
                   offset these additional expenses.

            c. Written Contracts. The Board and the NPPC, with AMS concurrence,
               established a policy that written subcontracts were not required
               for any products and services valued at $25,000 or less.       We
               identified three NPPC vendors without written contracts who
               provided more than $25,000 in services for checkoff-funded
               projects.    Moreover, we question the value of imposing an
               arbitrary dollar limit for requiring written subcontracts. The
               policy was established and violated largely because the NPPC had
               not implemented adequate controls to ensure written subcontracts
               were properly developed before work was started. Also, the Board
               did not exercise sufficient oversight of subcontracts and similar
               media used to obligate checkoff dollars.

               We believe it is reasonable for producers to expect written
               contracts for all but the smallest expenditures of checkoff
               funds. Checkoff funds are not the same as operating cash earned
               through normal business transactions.     They are contributions
               collected from producers through assessments based on production.
               Some contributions are clearly not voluntary; that is, some
               producers are vocal in their objections to pork assessments. As




USDA/OIG-A/01801-1-KC                                                   Page 12
               a result, the Board and the NPPC should operate very cautiously
               to preserve both the appearance and the fact of protecting
               checkoff funds.

               The Board could generate "boiler plate" contracts using
               inexpensive software combined with the advice of qualified legal
               counsel.   "Boiler plate" contracts could include all required
               elements of a contract and leave key spaces blank. The contracts
               can then be tailored to particular tasks by filling in the blanks
               with such information as the vendor’s name, type of service or
               product, cost, and timeframes for completion. This is an
               effective and inexpensive method to ensure that checkoff dollars
               receive at least the minimum expected value for cost.

               We found four irregularities that arose because of the absence of
               proper contract controls.

               (1) Consultant A. The NPPC paid this consultant $59,000 for work
                   that was never put under contract.       The consultant, a
                   university associate professor, performed a technical study
                   and produced a written report.      The Board approved the
                   project, budgeted for $150,000, in 1996. The NPPC did not
                   advertise this project for bid. Instead, the project manager
                   awarded the work to the consultant because the manager
                   believed the consultant was well qualified for the work on
                   the basis of other services performed for NPPC by the
                   consultant.

                   The manager and consultant agreed to terminate the project
                   before the project’s approved objectives were accomplished.
                   Both parties agreed the results of the first phases indicated
                   the project could not be completed as planned.            The
                   consultant stated a revised project proposal was currently
                   under development, but the revised subcontract would not be
                   awarded to him.

              (2) Consultant B. NPPC used the services of a particular chef
                  beginning in 1996. At the time of our review, the chef had
                  received about $81,690 for services and expenses. Only about
                  one quarter of the total amount disbursed to the chef, or
                  about $21,188, was covered by a written contract in force for
                  only 8 months.

                   The NPPC began using the chef in September 1996 without a
                   contract. In 1996, the chef received $16,500 for services,
                   plus about $1,400 for expenses. NPPC continued to use the
                   chef throughout 1997 and disbursed about $25,654 for the
                   chef’s services for the first 4 months of the year. On May 2,
                   1997, the project manager and the chef signed a contract
                   covering the rest of the year. Under the contract, the chef
                   received a total of about $21,098.        However, the chef
                   continued to provide services to the NPPC after the contract
                   expired and without a written extension or continuation. At
                   the time our fieldwork was completed, the NPPC had paid the




USDA/OIG-A/01801-1-KC                                                   Page 13
                   chef about $16,990 for 1998 services without a written
                   contract

                   NPPC’s Chief Financial Officer (CFO) stated a 1998 contract
                   was not necessary because the project manager did not expect
                   to use the consultant beyond the $25,000 limit. However, it
                   was clear the project manager intended to continue to use the
                   chef’s services.     We believe a prudent manager should
                   recognize the potential use of the contractor in 1998 and
                   either extend the 1997 contract or prepare a new one for
                   1998.

               (3) Vendor D.   In 1998, the NPPC commissioned and paid this
                   vendor $25,000 for promotional services without a written
                   contract in effect during the performance period.    NPPC’s
                   project documentation included a contract which showed the
                   vendor was required to provide the needed services during a
                   6-week period between March 20, and May 20, 1998, but the
                   contract was not signed until July 14, 1998. The contract
                   was also not signed by an authorized contracting official.

               (4) Vendor E.    The NPPC contracting officer made a written
                   agreement with a USDA agency on June 22, 1998. The expected
                   checkoff-funded costs of the agency’s services were budgeted
                   for just under $39,000. However, the signed contract stated
                   the agency’s services were to begin on April 1, 1998, over 2
                   months prior to the date of the agreement.

           d. USDA Requirements.     The NPPC awarded at least three 1998
              subcontracts without requiring the contractors to adhere to USDA
              requirements. Part 4 of the 1998 agreement between the Board and
              the NPPC shows the NPPC agreed to obtain certifications from all
              subcontractors on equal employment opportunities, affirmative
              action, and veterans’ preference provisions. NPPC also agreed it
              would enforce these terms, including corrective action for
              noncompliance.

               (1) The NPPC awarded a subcontract to a grocer (vendor F) who did
                   not wish to be encumbered with USDA contract requirements.
                   NPPC officials agreed with the vendor’s objections and
                   awarded a $50,400 subcontract without consulting the Board or
                   AMS.   Even though the project manager and NPPC officials
                   believed the vendor may have a valid objection, the NPPC
                   should not have authority to determine which requirements are
                   to be followed and which are not.

               (2) The NPPC awarded two subcontracts to vendors G and H, without
                   requiring the subcontractors to certify they would apply non-
                   discriminatory business practices. The two subcontracts were
                   valued at a total of about $90,000.

            e. NPPC Requirements.   NPPC officials revised the organization’s
               subcontracting practices in 1997, in response to an AMS report on
               one NPPC contract. To test the effectiveness of the new




USDA/OIG-A/01801-1-KC                                                   Page 14
               procedures, we conducted a limited review of the 51 subcontracts
               listed by the NPPC as active in July 1998.      Our examination
               included only selected elements of subcontracts funded with
               checkoff dollars.

               We determined that 15 of the 51 active subcontracts were not
               signed by the designated NPPC officials. The total value of the
               15 subcontracts was about $667,000. The revised NPPC guidelines
               required subcontracts valued at over $25,000 to be signed by
               either the NPPC contracting officer or the CEO. Two of the 15
               subcontracts were not signed by any NPPC official, and the
               remaining 13 (including those for vendors D, E, G, H, and I) were
               signed by managers who were no longer authorized to sign due to
               the changes in procedure.

               We also found an addendum to a contract was unsigned.        The
               subcontract, with vendor I, was amended to change the agreed-to
               billing terms. Although the original subcontract was signed by
               the CEO, the addendum was not signed by either the vendor or an
               NPPC official. The contract covered $150,000 in checkoff project
               work and was likely to be unenforceable because the changes were
               not approved by an authorized NPPC official.

               Finally, we found NPPC awarded three subcontracts, including a
               contract awarded to vendor H, that did not include timeframes or
               completion dates for the delivery of the contracted services. The
               total value of the three subcontracts exceeded $121,000.       In
               addition to common contracting requirements,     NPPC guidelines
               also required contracts to include the expected timeframes for
               completion of the contracted services.


    RECOMMENDATION NO. 2a

                                      Require   the  Board   to  develop  and
            implement sufficient oversight of the primary contractor’s
            subcontracting practices and procedures.       At a minimum, the
            procedures should include the establishment of an effective and
            accurate contract reporting system, and written policies and
            procedures for subcontracting operations funded by the Board.

            AMS Response
            AMS will require the Board to prepare written policies, procedures,
            and guidelines, governing the Board’s review and approval of
            subcontracts entered into by its primary contractor. This should
            include (1) procedures for contractor reporting on contracts and
            agreements to the Board; (2) providing the Board with progress
            reports; and (3) developing a method for monitoring contractor
            compliance with the Board’s written policies, procedures, and
            ensuring accountability for all checkoff funds.     The Board must
            submit its plan to AMS for these policies, procedures, and




USDA/OIG-A/01801-1-KC                                                   Page 15
            guidelines by September 1, 1999, and implement them by January 1,
            2000.

            OIG Position
            We agree with management’s decision for this recommendation.


    RECOMMENDATION NO. 2b

                                       Direct the Board to employ sufficient
            staff to ensure the primary contractor implements applicable
            practices, policies, and procedures, independent of the NPPC and
            other potential contractors. The staff should review and approve all
            significant subcontracts, considering the content, objectives, cost,
            and sensitivity of the affected contract proposal.

            AMS Response
            AMS will require the Board to develop a proposal for adequately
            staffing the Board to monitor and audit contracts and subcontracts
            to ensure proper administration of all checkoff funded activities
            and projects and compliance with the Board’s policies and
            procedures.     As an alternative, the Board may contract an
            independent firm to provide the necessary services in lieu of
            additional   Board  staff.      The  Board’s  response   for  this
            recommendation must also be consistent with AMS’ response to
            Recommendation No. 2a.     The Board’s plan must be submitted by
            October 1, 1999, and implemented by January 1, 2000.

            OIG Position
            We concur with management’s decision for this recommendation.


    RECOMMENDATION NO. 2c

                                       Instruct the Board to require contractors
            to prepare written subcontracts or agreements with all third parties
            when products and/or services are to be obtained with checkoff
            funds.   This may be accomplished with automated or pro forma
            contracts or other economical means to properly protect the Board
            and checkoff dollars.

            AMS Response
            AMS will instruct the Board to require its contractor(s) to issue
            written subcontracts and agreements with all third parties for
            checkoff funded products and services and the conditions under which
            each document is to be used. The Board must submit the planned




USDA/OIG-A/01801-1-KC                                                   Page 16
            procedures to AMS for approval by September 1, 1999, and implement
            them by January 1, 2000.

            OIG Position
            We agree with management’s decision for this recommendation.

                                      The  NPPC’s cost accounting practices for
       COST ACCOUNTING                checkoff-funded activities and indirect
                                      cost allocations did not provide enough
      REQUIREMENTS NEED               details to ensure proper administration
        STRENGTHENING                 of checkoff funds. Neither the Board nor
                                      the NPPC staff reconciled expenditures
                                      for checkoff projects and subcontracts to
                                      the approved budgets for each project.
                                      Instead, the Board monitored summaries of
          FINDING NO. 3               expenditures which did not disclose the
                                      costs attributable to each project and
                                      obscured     potentially    inappropriate
           expenditures. In addition, the Board did not validate NPPC’s method
           for allocating the checkoff share for fixed costs. These conditions
           occurred because the Board did not require its primary contractor to
           develop an accounting system which provided a unique accounting
           number or code for each project and subcontract and because NPPC’s
           indirect cost allocation method was unnecessarily complex. As a
           result, the Board did not identify or properly control costs charged
           to each project and could not provide reasonable assurance that
           indirect cost allocations charged to the Board were appropriate.

            Part 3, Section II, paragraph A, of the Board’s 1997 and 1998
            agreements with the NPPC required NPPC to maintain adequate records
            itemizing receipt and expenditure of all Board funds. It is also a
            fundamental responsibility of management to ensure accounting
            records properly record each transaction so project costs can be
            continuously monitored.    Such controls are necessary to assure
            management that costs are maintained within approved budgets and
            funds are not made available for other uses without the Board’s
            authorization.   Similarly, indirect cost allocations should be
            calculated on a less complex and uniform basis which can be readily
            identified and understood by those responsible for safeguarding
            checkoff funds.

            a. Project and Subcontract Accounting Codes and Classifications.
               The Board authorized NPPC to track expenditures by grant area and
               selected projects, rather than by individual projects and
               subcontracts. The Board permitted NPPC to provide only summary
               reports on the progress and costs of the grant areas and major
               projects.   This allowed project managers to redirect checkoff
               funds, which were not expended as planned, to other uses within
               the same classification code. As a result, the Board could not
               effectively monitor and control actual project costs.




USDA/OIG-A/01801-1-KC                                                   Page 17
               We examined records for six NPPC checkoff project accounts and
               found that each account recorded transactions from as many as six
               different subprojects. The trial balances for the six accounts
               totaled about $1.5 million. The Executive Vice President and
               NPPC program manager stated the subprojects were interrelated.
               However, we concluded the subprojects were not always related
               (see Exhibit A for details).

               We believe the following examples show how NPPC’s cost accounting
               practices lead to inadequate control and potential misuse of
               checkoff funds.

               --   One account was charged $73,408 for undefined supplies. The
                    project manager stated "pinpointing" a project for a specific
                    supply expense would be difficult, requiring a reviewer to go
                    through every supply invoice to identify the appropriate
                    projects for supplies, and even then, the review may not
                    identify the project. In our opinion, $73,000 is too large
                    an amount to classify as undefined "supplies" spread over
                    several projects.   Although the project manager could not
                    attribute the supply costs to specific projects after the
                    purchases were originally recorded, the costs should have
                    been attributable to specific projects when incurred.

               --   Twenty-five transactions, totaling $41,628, could not be
                    attributed to any of the projects in the six accounts. There
                    was also no additional supporting documentation to show the
                    costs should have been distributed to all projects in the
                    account.

               --   Rather than accounted as an asset of the Board, $1,105 was
                    expended for furniture. We are concerned with the propriety
                    of purchasing furniture with checkoff funds for program
                    projects and accounting for it as a project expense.
                    "Expensed" furniture is vulnerable to misappropriation when
                    the project is completed.

               --   NPPC’s CFO stated that staff developed a subaccount numbering
                    system with three additional numbers to enable project
                    managers to record transactions for each subproject; use of
                    the subaccounts was at the discretion of responsible
                    managers.    The managers responsible for the six summary
                    accounts we reviewed chose not to use subaccount numbers.

            b. Allocation of Fixed Costs.     A review of the NPPC chart of
               accounts showed the NPPC charged the Board a significant amount
               of fixed costs.    The costs varied, but were applied to every
               checkoff-funded account. NPPC’s fixed costs were a mix of direct
               salary and indirect overhead costs; the method used to assign
               fixed costs appeared to be more complex than necessary. We did
               not conduct a detailed analysis or evaluation to evaluate the
               impact of fixed cost determinations on checkoff-funded projects.
               However, we noted that fixed costs ranged from less than 5




USDA/OIG-A/01801-1-KC                                                    Page 18
               percent to over 90 percent of total costs for selected checkoff
               funded accounts.

               The Board’s Executive Vice President and AMS program officials
               stated neither the Board nor AMS verified or tested the fixed
               costs charged by the NPPC.    As a result, the Board could not
               validate the propriety of the costs charged to checkoff funds.
               The Executive Vice President and NPPC’s CFO concurred the
               allocation used by NPPC was unduly complex and stated the
               complexity was caused by an early AMS ruling which prevented NPPC
               from using a more direct allocation method. As a result, NPPC
               accountants developed a series of calculations to distribute
               indirect costs without allocating them directly to individual
               checkoff and non-checkoff projects.


    RECOMMENDATION NO. 3a

                                       Require the Board to establish unique
            account numbers for each checkoff funded project and subcontract and
            to ensure that all monetary transactions attributable to each
            project/subcontract are accurately and completely recorded in the
            revised accounts. The Board should use the restructured accounts to
            better control checkoff expenditures through improved monitoring and
            yearend reconciliation of actual costs to approved budgeted amounts.

            AMS Response
            AMS will require the Board to include this recommendation in the
            development and implementation of the written policies and
            procedures governing the primary contractor’s issuance of contracts
            referenced in the agency’s response to Recommendation No. 2a. The
            Board must submit its plan to AMS for these policies and procedures
            by September 1, 1999, and implement them by January 1, 2000.

            OIG Position
            We agree with management’s decision for this recommendation.


    RECOMMENDATION NO. 3b

                                      Review  and   annually   validate   the
            methodology used by the NPPC to allocate fixed costs to the Board
            and checkoff funds. Ensure the approved allocation methodology is
            sufficiently uncomplicated to be understood by Board members and
            program officials.




USDA/OIG-A/01801-1-KC                                                   Page 19
            AMS Response
            AMS will direct the Board to arrange for an independent review of
            the methodology presently used to allocate contractor overhead and
            other indirect costs. The Board will be required to recommend to AMS
            any necessary changes, based on the results of the review, in the
            process used to facilitate the Board’s annual review and validation
            of NPPC’s allocation of costs. This action may be accomplished in
            conjunction with the independent third-party review referred to in
            the agency’s response to Recommendation No. 1a.

            OIG Position
            We concur with management’s decision for this recommendation.
            However, we believe that AMS program officials also have a duty to
            annually review the propriety of NPPC cost allocations. AMS can
            accomplish this through a specifically directed review incorporated
            into the Board’s required annual financial statement audit.

                                      Statepork producer associations were
      REVIEWS OF STATE              not tested to determine if their checkoff
                                    expenditures complied with the applicable
  ASSOCIATIONS DID NOT TEST         provisions of the Act.    This condition
       FOR COMPLIANCE               developed because AMS and the Board did
                                    not perform or require compliance reviews
                                    to be performed at State associations.
                                    Thus, neither the Board nor AMS can
                                    provide reasonable assurance that State
         FINDING NO. 4              associations expend checkoff funds in
                                    accordance with the Act. As a result, an
                                    average of about $10.5 million checkoff
          funds distributed to State associations each year ($31.6 million
          from 1995 through 1997) are vulnerable to waste, loss, and misuse.

            The Act requires checkoff funds distributed to State associations be
            expended to finance pork promotion, research, and consumer
            information plans and projects, plus administrative expenses. The
            Act did not include provisions requiring the Board to conduct
            compliance reviews. Compliance tests are necessary to ensure the
            Act is implemented as intended.

            The Board required State associations to submit documentation
            annually to show how they planned to use checkoff funds during the
            year. The Board also required State associations to submit copies
            of reports from periodic financial reviews, the type and frequency
            of which was determined by the amount of checkoff dollars
            distributed to the association. The Board also conducted onsite
            reviews at up to two associations per year, but compliance tests
            were not incorporated into the reviews. The Board’s Executive Vice
            President stated the reviews focused on educating State associations
            on the proper use of checkoff funds, without determining if the
            associations actually complied. He added the Act did not require
            the Board to perform compliance reviews.




USDA/OIG-A/01801-1-KC                                                   Page 20
            Our analysis of State association reviews verified the following.

            -- Education and cooperation appeared to be the primary focus of the
               Board’s State association reviews.

            -- The Board did not use the amount of checkoff funds collected from
               State producers or expended by each State association as criteria
               for recent selections of associations for review. Based upon the
               Board’s 1997 statistics, 6 of 10 States which received more than
               $300,000 in distributed checkoff funds have not been reviewed
               since the Board initiated the review process in 1990.          In
               addition, State associations for 2 of the 10 largest pork
               producing States have never been reviewed, including North
               Carolina, the State with the second most checkoff funds collected
               and expended.

            -- NPPC employees conducted the reviews rather than a Board employee
               or independent contractor. This practice is questionable because
               of a potential conflict of interest between the NPPC and State
               associations. Many State associations are members of the NPPC
               and may share support of the NPPC’s work. In our opinion, it
               would be more prudent for the Board to employ or contract
               qualified persons who are independent of the NPPC to conduct such
               reviews.


    RECOMMENDATION NO. 4a

                                      Instruct the Board to more closely
            monitor State association expenditures of checkoff funds and
            periodically conduct compliance tests of them. This should include
            instructions for developing procedures to objectively select State
            associations for review and minimum requirements for planning,
            conducting, documenting, and reporting the results of reviews.

            AMS Response
            AMS will require the Board to revise its policy for reviewing State
            Pork Producer Associations by (1) determining the number of
            associations that shall be reviewed annually in order to ensure all
            associations are audited every 5 years; (2) developing and
            documenting uniform compliance tests to verify compliance with
            applicable laws, regulations, and policies; (3) conducting
            compliance reviews using Board personnel or independent, qualified
            personnel contracted by the Board; (4) reporting the results of
            reviews within 45 days, including corrective actions planned or
            taken as a result of each review; and (5) providing advance notice
            of scheduled reviews to AMS to facilitate potential accompaniment by
            agency personnel.   The Board is to submit the State association
            review policy to AMS by November 30, 1999, and implement the plan by
            January 1, 2000.




USDA/OIG-A/01801-1-KC                                                   Page 21
            OIG Position
            We agree with management’s decision for this recommendation.

                                      The Board did not effectively perform or
   COLLECTION SITE REVIEWS            document compliance tests at checkoff
                                      collection points. The Board’s written
    NEED BETTER CONTROLS              procedures for these reviews were not
                                      sufficient to assure performance and
                                      documentation of effective and uniformly
                                      applied compliance tests. As a result,
          FINDING NO. 5               the Board cannot provide reasonable
                                      assurance checkoff funds were collected
                                      in accordance with the Act.

            Section 1620(a) of the Act states assessments shall be payable by
            each producer who raises feeder pigs, seed stock, or hogs sold or
            slaughtered for sale and the assessments shall be remitted to the
            Board.

            The Board commissioned a contractor to perform onsite reviews at
            markets and other pork checkoff collection sites each year. The
            reviewer arranged visits to several sites within a particular area.
            Due to the lack of available documentation, we could not establish
            the objective(s) of these reviews.        We reviewed the Board’s
            documentation for past reviews and found the reviewer did not record
            the methodology used to accomplish the reviews or disclose the scope
            and results of any tests performed. However, one apparent objective
            was to determine if selected markets complied with the checkoff
            collection requirements.

            The Board required the reviewer to prepare written reports for each
            site visited. The reports showed the reviewer recorded only a short
            description of the market visited and a statement that the market
            complied. The records also did not include critical data about the
            reviews, such as criteria used to select the sites visited or
            collection date(s) tested.

            In 1997, the reviewer planned 2 trips to review a total of 20
            collection sites. However, the reviewer did not visit all the sites
            selected for review. We could not determine the number of sites the
            reviewer actually visited due to the lack of documentation. During
            one trip, the reviewer traveled to Washington and Oregon and visited
            only 6 of the 11 selected sites.     The reasons documented by the
            reviewer for not visiting the sites included "too far to drive" and
            "time constraints." In one case, a producer "stood up" the reviewer
            and successfully avoided review. Also, the reviewer did not always
            document whether or not the visited sites complied with the Act. We
            noted the reviewer recorded compliance conclusions for only two
            sites reviewed in 1997.

            The Board’s Executive Vice President stated the Board also relied on
            statistical data from the Agricultural Research Service and the




USDA/OIG-A/01801-1-KC                                                   Page 22
            Grain Inspection, Packers and Stockyard Administration, to estimate
            the effectiveness of the Board’s collection activities.         The
            Executive Vice President said the data indicated actual collections
            totaled over 95 percent of the statistical estimates provided by
            these agencies.    The Board did not maintain a record of these
            statistical reviews or documentation of the results.

            The contract reviewer retired in 1997. The Executive Vice President
            used the reviewer’s departure as an opportunity to develop better
            defined written procedures for the compliance reviews and to arrange
            training for a replacement contractor.        At the time of our
            evaluation, the Board had drafted new written procedures, replaced
            the reviewer, and provided training to the new reviewer.


    RECOMMENDATION NO. 5a

                                      Provide sufficient oversight to ensure
            the Board’s written procedures for compliance reviews at checkoff
            collection sites include appropriate compliance tests and that the
            Board effectively implements the procedures. The Board’s procedures
            should state clear objectives for the reviews, provide guidance for
            site selections, and establish uniform and effective compliance
            tests, as well as documentation and reporting requirements for each
            review conducted.

            AMS Response
            On January 12, 1999, the Board submitted a compliance manual on
            assessment collections to AMS for approval.       AMS is presently
            reviewing the manual and will ensure that it establishes detailed
            and uniform procedures for conducting audits of assessment
            collections for all classes of swine and that it addresses all
            points cited in Recommendation No. 5a. In addition, the Board will
            be required to provide AMS advance notice of scheduled reviews to
            facilitate potential accompaniment by agency personnel. AMS plans
            to complete the review and approval process by June 1, 1999, and the
            Board must implement the new procedures by September 1, 1999.

            OIG Position
            We concur with management’s decision for this recommendation.




USDA/OIG-A/01801-1-KC                                                   Page 23
  II. NATIONAL PORK ELECTIONS SHOULD BE MORE INCLUSIVE



                                      Election practices for Board delegates
      RESTRICTED VOTING             inhibited participation  by pork producers
                                    who contributed checkoff assessments.
     OPPORTUNITIES INHIBIT          State pork producer associations limited
        PARTICIPATION               the   number   and   location   of   sites
                                    available for producers to participate
                                    and did not permit mail-in ballots. The
                                    associations also did not ensure election
                                    participation was limited to bonafide
         FINDING NO. 6              pork producers.    This occurred because
                                    the Board did not establish inclusive
                                    voting   procedures   or   monitor   State
          election practices. The Board did not direct State organizations to
          require voters to preregister and/or provide evidence they produced
          pork and complied with checkoff requirements.         As a result,
          participation in delegate elections is accomplished by less than 3
          percent of all producers and State and national elections for Board
          delegates are vulnerable to manipulation by ineligible producers.

            Section 1617(b), of the Pork Promotion, Research, and Consumer
            Information Act states each State association shall provide
            nominations through a process that provides complete and equal
            access to the nomination process to every producer who has paid all
            assessments due.

            We visited one State association (Iowa) to review State voting
            practices and interviewed association officials from four other
            States (Michigan, Minnesota, Nebraska, and North Carolina).       We
            found all five associations limited voting to one day and to one
            location.   All five State associations also permitted voters to
            self-certify their eligibility to vote without evidence of residency
            or pork production. The State associations estimated the average
            number of voters ranged from 25 to 100 participants. The number of
            voters in each States’ most recent delegate elections (1998), ranged
            from 25 to 77 producers. For these years, 1997 and 1998, the number
            of voters represented less than 1 percent and less than 3 percent,
            respectively, of eligible producer in these States (See table on
            page no. 25 for details).

            As an example, the North Carolina association held an election on
            August 4, 1998, for 1999 delegates.      The State’s Department of
            Environment and Natural Resources estimated there were about 2,500
            pork producers in the State, of which a State official estimated
            only about 1 percent participated in the 1998 delegate election.
            The election was held at a motel in Raleigh, North Carolina. One
            State association official stated that, generally, the association’s
            board of directors were the only voters. North Carolina permitted




USDA/OIG-A/01801-1-KC                                                   Page 24
            mail-in ballots for the State association’s own board of director
            elections, but not for Board delegate elections.

            In another example, the Iowa association held their delegate
            election on July 15, 1998. Any Iowa producer was free to either
            participate or not participate.     To participate, producers must
            travel to a hotel located near the association’s offices. The State
            association did not permit mail-in ballots. Only 77 of an estimated
            18,000 - 20,000 pork producers (less than one-half of 1 percent)
            participated in the election in this State.

               The following table illustrates our finding:

                                Estimated No.   No. of
               State            of Producers    Voters        Ratio
               Michigan              2,200      50-60*        .0270
               Minnesota            10,000         54         .0054
               Nebraska              7,000         26         .0037
               North Carolina        2,534         25         .0099
               Iowa                 19,000         77         .0041

               * State organization estimate, actual number not available.
            We believe these voting practices inhibited participation by
            bonafide pork producers. It is not reasonable to expect producers
            to drive to one city in a State to participate in an election
            because it does not provide "equal access" to rural producers
            located in all corners of the State. Potential alternative voting
            sites may include USDA’s Farm Service Agency county offices and
            local pork producer associations.     It is also inappropriate to
            permit participation in the elections by potential nonresident
            and/or nonproducing voters without some form of verification of
            eligibility. In order to comply with the Act, the Board’s election
            practices should facilitate full participation by eligible
            producers, rather than limit access by restricting the location and
            timing of elections. Similarly, State associations and the Board
            have a duty to ensure that only eligible producers participate in
            delegate elections.


    RECOMMENDATION NO. 6a

                                      Direct the Board to develop and implement
            voting policies and procedures which ensure (1) Board delegate and
            similar elections provide complete and equal access to every
            producer who paid all assessments due and (2) only eligible
            producers participate in delegate and similar elections.




USDA/OIG-A/01801-1-KC                                                  Page 25
            AMS Response
            AMS will direct the Board to develop written procedures for State
            association to conduct statewide elections of nominees for
            appointment by the Secretary of Agriculture to the National Pork
            Producers Delegate Body. The revised voting procedures are to be
            submitted to AMS for approval by September 1, 1999, and implemented
            for elections occurring after January 1, 2000.

            OIG Position
            We agree with management’s decision for this recommendation.


    RECOMMENDATION NO. 6b

                                      Require the Board to establish effective
            oversight review procedures to ensure State associations comply with
            the Board’s election policies and procedures.

            AMS Response
            AMS will direct the Board to require each State association to
            certify, at the time of submission of names for nominees to the
            Board, that they comply fully with the revised and AMS approved
            voting procedures. AMS will also require the Board to include a
            review and certification of State association election procedures to
            ensure compliance with the revised procedures.          The revised
            procedures are to be submitted to AMS for approval by September 1,
            1999, and implemented by January 1, 2000.

            OIG Position
            We concur with management’s decision for this recommendation.




USDA/OIG-A/01801-1-KC                                                   Page 26
EXHIBIT A - PROJECT ACCOUNT CLASSIFICATIONS

   We examined records for six NPPC checkoff project accounts and found each
   account included transactions from as many as six different subprojects.
   This exhibit presents summaries of the six selected project accounts and, in
   our opinion, shows transactions for the subprojects should be separately
   accounted for rather than mixed in one account (see Finding No. 3).



           Account Classification Which Included
                  Payments to Consultant A

Program/Project Title:   Networking                                 Year: 1997

                                               No. of             Total
           Subproject Title                 Transactions          Amount
       Networking and Value Added               14                $44,025
       Educational Meetings                      7                 16,887
       State Networking Contacts                 9                 30,345
       Networking Committee Meetings             5                    701
       State Networking Contact Meeting         22                 17,988
       Unsure/Could Not Recall                   1                    154
           TOTAL                                58               $110,100




Program/Project Title:   Networking                                 Year: 1998

                                               No. of             Total
           Subproject Title                 Transactions          Amount
       Value-Added Pilot Projects               14                 $9,497
       Networking                                1                  2,000
       Mail Service                              1                      4
           TOTAL                                16                $11,501




USDA/OIG-A/01801-1-KC                                                  Page 27
EXHIBIT A - PROJECT ACCOUNT CLASSIFICATIONS

           Account Classification Which Included
                  Payments to Consultant B

Program/Project Title: Retail Meal Solutions                   Year: 1997

                                                  No. of      Total
           Subproject Title                    Transactions   Amount
       Research                                      11       $125,869
       New Product Creative                           5         76,569
       M.A.P.S. Support New Product Rollout           4        136,591
       OP/Supplies                                    8          8,894
       Reclassified Prepaid expenses                  1          4,550
                TOTAL                                29       $352,473




Program/Project Title: New Products Research                   Year: 1997

                                                  No. of      Total
           Subproject Title                    Transactions   Amount
       Visionary Design Research                    21         $64,593
       New Product Research (consumer and
           technical/meat science)                  13          82,295
       New Product Research - consumer               4          39,904
       New Product Research - technical
           and meat science                          7          55,275
       Conference Registration and Fees              6           6,605
       Demand Enhancement Committee                 49           1,621
       Intern Help                                   1              68
       Bozell Monthly Fee                           12         300,000
       Out of Pocket Expenses/Supplies              52          73,408
       Storage Fee                                   1              25
       Beginning Year Invoice Credits                2          <9,090>
       Office Furniture                              1           1,105
       Replenish Petty Cash Expense                  4             186
       Unknown/Uncertain Transactions                4              90
               TOTAL                               177        $616,085




USDA/OIG-A/01801-1-KC                                              Page 28
EXHIBIT A - PROJECT ACCOUNT CLASSIFICATIONS

                        Consultant B        (continued)



Program/Project Title: New Products                          Year: 1998

                                                No. of        Total
           Subproject Title                  Transactions    Amount
       Technical Research and Development          10        $8,966
       Deep Basted Research                         4        19,346
       New Product Optimization Research            3         1,208
       Fresh Ham Product Research                   4        17,486
       New Product - Qualitative Research           3        25,527
       Conference/Meeting                           1           225
       New Products Committee                       1            29
       Shipping                                     1           212
       Operating Supplies                           4           599
       Replenish Account                            1            1
       Reclassified Transaction                     1           <16>
       Unknown Transactions                         2        <1,116>
                TOTAL                              35       $72,467




           Account Classification Which Included
                Payments to Subcontractor C

Program/Project Title: Genetic Evaluation & Research         Year: 1996

                                                No. of      Total
           Subproject Title                  Transactions   Amount
       Maternal Line Program                      18         $85,971
       Lean Growth Modeling                      207         167,649
       Terminal Line Program                       7             447
       Genetics Committee Meeting                103          33,473
       Other-Book Purchase & Program Support       2             480
       Unsure/Could Not Recall                    18          42,499
           TOTAL                                 355        $330,519




USDA/OIG-A/01801-1-KC                                            Page 29
EXHIBIT B - NATIONAL PORK BOARD COMMENTS
            ON OUR PRELIMINARY FINDINGS




USDA/OIG-A/01801-1-KC                 Page 30
EXHIBIT B - NATIONAL PORK BOARD COMMENTS
            ON OUR PRELIMINARY FINDINGS




USDA/OIG-A/01801-1-KC                 Page 31
EXHIBIT C - AMS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/01801-1-KC                   Page 32
EXHIBIT C - AMS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/01801-1-KC                   Page 33
EXHIBIT C - AMS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/01801-1-KC                   Page 34
EXHIBIT C - AMS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/01801-1-KC                   Page 35
EXHIBIT C - AMS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/01801-1-KC                   Page 36
